No. 20-441
cjitt the

$typrente To of flit thiebStates
Minnesota Sands, LLC,

Petitioner;

vs.
County of Winona, Minnesota,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF MINNESOTA
BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
AFFIDAVIT OF SERVICE
be
Stephen M. West, states that all parties required .to
served have been served and that three true and correct
of
copies of the Brief in Opposition to Petition for Writ
Certiorari were served on the persons listed below on the
4th day of December, 2020, by depositing them with the
United States Post Office, with First Class Postage
prepaid.

•

Aaron D. Van Oort
FAEGRE DRINKE BIDDLE & REATH, LLP
2200 Wells Fargo Center
90 South Seventh Street
Minneapolis, MN 55402

Stephen M. West
Subscribed and sworn to before me this 4th day of
December, 120.
...

(tart' Public

EDWIN R. MOTCH
--"1NOTARY PUBLIC - MINNESOTA
My Commission Expirs$ Jan. 31, 2025

